Report No. D-2008-105        June 20, 2008




      Defense Emergency Response Fund
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DERF                  Defense Emergency Response Fund
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
DSCA                  Defense Security Cooperation Agency
DoS                   Department of State
FMR                   Financial Management Regulation
OGC                   Office of General Counsel
OHDACA                Overseas Humanitarian, Disaster, and Civic Aid
SECDEF                Secretary of Defense
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
USTRANSCOM            United States Transportation Command
WHS                   Washington Headquarters Services
                                                                           June 20, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (POLICY)
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND
                 DEFENSE AND AMERICA'S SECURITY AFFAIRS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on the Defense Emergency Response Fund
         (Report No. D-2008-1 05)


      Weare providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report.

        Comments on a draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required. As a result of management comments, we revised Recommendation 3 to clarify
our intentions.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lorin T. Pfeil at (703) 601-5945 or Mr. Henry Y. Adu at (703) 601-5893. See
Appendix B for the report distribution. Team members are listed inside the back cover.




                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                         for Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-105                                                      June 20, 2008
   (Project No. D2007-D000FE-0105.000)

                       Defense Emergency Response Fund

                                 Executive Summary

Who Should Read This Report and Why? DoD Military and civilian personnel who
manage and account for DoD assistance to civil authorities in disaster and humanitarian-
related emergencies should read this report. It discusses the use of DoD emergency funds
to finance DoD-assisted relief efforts in declared emergencies.

Background. Under the Robert T. Stafford Disaster Relief and Emergency Assistance
Act, Public Law 106-390, October 30, 2000, DoD may be required to provide assistance
to Federal agencies and state and local governments in response to major disasters or
states of emergency declared by the President. It is also DoD policy to participate in
foreign disaster relief operations after the Department of State determines that foreign
disaster relief should be provided. In FY 1990, Congress established the Defense
Emergency Response Fund (DERF) to reimburse DoD for providing disaster or
emergency assistance to other Federal agencies and to state and local governments in
anticipation of reimbursable requests. The Treasury index symbol for the DERF is
97X4965 and was initially funded at $100 million. The purpose of DERF is to allow
DoD to provide disaster and emergency relief assistance without depleting the funds it
needs to accomplish its mission. In FY 1994, Congress provided an additional
$299.3. million to DERF specifically to provide emergency relief for Rwanda and for
emergency migrant processing and safe-haven costs in or around Cuba.

Results. This audit was to determine whether DERF was used for its intended purposes
and is sufficiently funded to allow DoD to continue providing disaster assistance around
the world. DoD Components properly used DERF for disaster and humanitarian
assistance. However, DoD treated DERF as a direct fund cite account instead of as a
reimbursable account, as required by Public Law 101-165. In addition, based on our
review of Defense Finance and Accounting Service reports, we believe that DERF was
not reimbursed by the Department of State for 11 overseas projects performed by DoD.
Because DERF was not used as a reimbursable account, the DoD Components have
about $12.1 million in DERF direct obligation authority that has remained unobligated
for more than 10 years and should be returned to the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. The Components also have an additional
$3.3 million in funds that have been classified as unpaid obligations for more than
10 years. This money should be deobligated and returned to the Under Secretary of
Defense (Comptroller)/Chief Financial Officer. Further, after comparing the current
account balance with its initial funding, we believe that DERF is not sufficiently funded
to meet increasing DoD involvement in disaster relief efforts. Implementing the
recommendations would allow DoD to streamline accounting for DERF. (See the
Finding section of the report for detailed recommendations.)
Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer agreed with Recommendation 1.a., and 1.b.
and partially concurred with Recommendations 2 and 3. The Assistant Secretary
of Defense for Homeland Defense and America’s Security Affairs did not provide
us with direct comments on the recommendations of this report. Personnel from
the Office of the Assistant Secretary of Defense for Homeland and America’s
Security Affairs told us that they coordinated their response with the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer. We
confirmed the statement with personnel of the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer who told us that they considered
those comments in preparing the comments they provided to us. We therefore
consider the Under Secretary of Defense (Comptroller)/Chief Financial Officer
comments to be inclusive of the Assistant Secretary of Defense for Homeland
Defense and America’s Security Affairs comments. No additional comments are
required from the Assistant Secretary of Defense for Homeland Defense and
America’s Security Affairs. As a result of management comments, we revised
Recommendation 3 to clarify our intentions. See the Finding section of the report
for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                     ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objective                                                                3

Finding
     Accounting for DERF Reimbursable Expenditures                       4

Appendixes
     A. Scope and Methodology                                           17
        Prior Coverage                                                  19
     B. Report Distribution                                             20

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   23
Background
    Under the Robert T. Stafford Disaster Relief and Emergency Assistance Act,
    Public Law 106-390, October 30, 2000, (the Stafford Act), DoD may be required
    to provide assistance to Federal agencies and state and local governments in
    response to major disasters or states of emergency declared by the President. It is
    also DoD policy to participate in foreign disaster relief operations after the
    Department of State (DoS) determines that foreign disaster relief should be
    provided. In FY 1990, Congress established the Defense Emergency Response
    Fund (DERF) to reimburse DoD for providing disaster or emergency assistance to
    other Federal agencies and to state and local governments in anticipation of
    reimbursable requests. The Treasury index symbol for this DERF appropriation
    is 97X4965. The purpose of DERF is to allow DoD to provide disaster relief
    assistance without depleting the funds it needs to accomplish its mission. DERF
    centralized DoD financial accounting for the disaster assistance it provides and
    was first used in 1991 for disaster relief in Bangladesh. In 1994, DERF was used
    for refugee assistance in Rwanda, Cuba and Haiti, and for humanitarian assistance
    on 9 other overseas projects. In 2006, DERF was used to provide assistance to
    the earthquake victims in Pakistan.

    Public Law 101-165. Public Law 101-165, DoD Appropriations Act of 1990,
    November 21, 1989, established DERF to allow DoD Components to provide
    disaster relief assistance to other Federal agencies and to state and local
    governments in anticipation of a reimbursable request for assistance. DERF was
    initially funded at $100 million. Under the law, DERF may be used when the
    Secretary of Defense (SECDEF) determines that the need for DoD immediate
    assistance is too urgent to wait for a formal reimbursable request for assistance.

    Public Law 103-139. Public Law 103-139, DoD Appropriations Act of 1994,
    November 11, 1993, amended Public Law 101-165 and stated that when the
    SECDEF determines that immediate DoD assistance is necessary, DERF, in
    addition to other funds available, may be used for DoD expenses incurred in
    responding to disasters.

    Public Law 103-335. Public Law 103-335, DoD Appropriations Act of 1995,
    September 30, 1994, provided a supplemental appropriation of $299.3 million to
    DERF to reimburse DoD for FY 1994 costs incurred for emergency relief to
    Rwanda and for emergency migrant processing and safe-haven costs in and
    around Cuba. After October 7, 1994, the funds could not be used to provide
    assistance in and around Rwanda, “except for any action that is necessary to
    protect the lives of United States citizens.”


Accounting Criteria for DERF
    The following DoD policies provide guidance on the use of DoD resources to
    provide disaster and humanitarian relief assistance to civil authorities and on the
    administrative control of DERF to finance the assistance from DoD.



                                          1
        DoD Directive 5100.46. DoD Directive 5100.46, “Foreign Disaster
Relief,” December 4, 1975, provides policy for the use of DoD resources in
foreign disaster relief operations and assigns responsibilities for carrying out the
policy. According to the directive, DoD Components will participate in foreign
disaster relief operations after DoS has made a determination that foreign disaster
relief should be provided. DoS will then ask DoD to provide the assistance
needed. The directive requires the DoD Assistant Secretary of Defense
(International Security Affairs) to designate a DoD Coordinator for Foreign
Disaster Relief, who serves as the DoD point of contact with DoS and coordinates
DoD matters relating to foreign disaster relief operations. The directive also
requires DoD Components to prepare bills and vouchers for reimbursement and
provide them to the DoD Coordinator for Foreign Disaster Relief, who will
forward them to DoS for payment.

        DoD Directive 3025.1. DoD Directive 3025.1, “Military Support to Civil
Authorities,” January 15, 1993, assigns responsibilities and provides policy by
which DoD responses to major disasters and emergencies in accordance with the
Stafford Act. The directive requires DoD Components to comply with legal and
accounting requirements when using DoD resources to support civil authorities so
as to ensure cost reimbursement under the Stafford Act, Public Law 101-165, or
other applicable laws. The directive also requires the Under Secretary of Defense
(Comptroller)/Chief Financial Officer (USD[C]/CFO), in conjunction with the
DoD executive agent, to provide accounting and other procedures necessary to
manage DoD expenditures for the relief efforts using DERF.

       DoD Manual 3025.1-M. DoD 3025.1-M, “Manual for Civil
Emergencies,” June 1994, provides additional guidance for DoD funding,
accounting, and reimbursements for disaster relief efforts using DERF.
According to the manual, “the DoD Office of the Deputy Comptroller (Program
and Budget) controls the use of the fund.” The Deputy Comptroller (Program and
Budget) is also responsible for preparing and issuing funding authorizations from
DERF. According to the manual, after the amendment of DERF by Public Law
103-139, the SECDEF made a determination that DERF funds not to exceed
$50 million may be used for foreign disaster assistance, and the remainder of the
funds are to be used for domestic disaster and civil emergency assistance. In
addition, foreign disaster relief operations are to be administered by the office of
the Under Secretary of Defense (Policy). The manual also requires DoD
Components to use their own resources first and then bill DERF for
reimbursement.

       DoD Financial Management Regulation. The DoD Financial
Management Regulation (FMR) establishes DoD accounting policies and
provides guidance for the management of DERF.

DoD FMR volume 1, chapter 9, “Financial Records Retention,” June 1999,
section 090201, requires DoD Components to maintain all financial records
(except for those supporting settlement vouchers for official travel) for a
minimum period of 6 years and 3 months.

DoD FMR volume 3, chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” September 2000, section 0804, requires DoD


                                     2
    Components to perform a quarterly review of all commitments and obligations of
    funds for timeliness, accuracy, and completeness. Chapter 10, “Accounting
    Requirements for Expired and Canceled Accounts,” states that for appropriations
    that are available for an indefinite period, obligated and unobligated balances in
    such appropriations should be canceled when no disbursements have been made
    for a period of 2 years and when the President, the SECDEF or his designee
    determines that the purpose for which the appropriation was made available has
    been carried out.

    DoD FMR volume 12, chapter 6, “Defense Emergency Response Fund,”
    September 1996, establishes DoD policy and procedures that govern the use of
    DERF. DERF was established to provide obligation authority to DoD
    Components “upon a determination by the SECDEF that immediate action is
    necessary in response to a natural or manmade disaster; and in anticipation of
    reimbursable orders from other Federal departments and agencies and from state
    and local governments.” The DoD FMR requires the DoD executive agent to
    commit funds from the DERF in anticipation of reimbursement to the fund. The
    DoD executive agent then issues task orders to DoD Components, who will
    obligate their own funds for the task, perform the task, and bill the DERF for
    costs incurred. The Components are required to maintain requests for
    reimbursement and supporting documentation for a period of 6 years and 3
    months. The Defense Finance and Accounting Service (DFAS) then pays the
    performing DoD Components from DERF and requests reimbursement from the
    benefiting agency. The DoD executive agent is required to inform the Deputy
    Comptroller (Program/Budget) of the need for additional appropriation, if
    necessary, to sustain DERF.

    DoD FMR volume 12, chapter 23 “Contingency Operations,” September 2005,
    establishes financial policy and procedures for DoD contingency operations,
    including major humanitarian assistance and international disaster relief efforts.
    According to this chapter, the Under Secretary of Defense (Policy) is responsible
    for the management of DoD humanitarian and international disaster relief
    operations. The USD(C)/CFO is responsible for overall financial policy of the
    humanitarian and international disaster relief efforts and is also responsible for
    pursuing prompt reimbursement from those requesting DoD assistance. DFAS is
    responsible for consolidating billings and transmitting them to the requesting
    organizations for payment.


Objective
    Our overall audit objective was to determine whether DERF was used for its
    intended purposes and is adequately funded to respond to national disasters. See
    Appendix A for a discussion of the scope and methodology of our review and
    prior coverage related to the objective.




                                         3
                  Accounting For DERF Reimbursable
                  Expenditures
                  DoD Components used the Defense Emergency Response Fund
                  (DERF) to provide disaster relief and emergency assistance around
                  the world. However, DERF was not used as a reimbursable
                  account because the Under Secretary of Defense
                  (Comptroller)/Chief Financial Officer gave the DoD Components
                  direct obligation authority to DERF, instead of having the
                  Components first use their own resources and then bill DERF for
                  reimbursement. Because Under Secretary of Defense
                  (Comptroller)/Chief Financial Officer gave them direct obligation
                  authority, the Components:

                  •   have about $15.4 million in DERF obligation authority that has
                      remained unobligated or been classified as unpaid obligations
                      for more than 10 years that should be returned to the Under
                      Secretary of Defense (Comptroller)/Chief Financial Officer,

                  •   used about $78.7 million for overseas disaster and
                      humanitarian assistance and did not bill the Department of
                      State for reimbursement (in 2006, one Component also used an
                      additional $6 million for another overseas disaster assistance
                      on a nonreimbursable basis for the Department of State), and

                  •   improperly used $136.5 million of funds that Public Law 103-
                      335 provided for emergency relief efforts in Rwanda and for
                      emergency migrant processing and safe-haven costs in and
                      around Cuba for other DERF-funded projects.

                  In addition, based on the current account balance of $15.3 million,
                  DERF is not sufficiently funded to meet increasing DoD
                  involvement in manmade and natural disaster relief efforts.


DERF-Funded Projects
    Our review indicates that DoD Components overwhelmingly used DERF for its
    intended purposes. Table 1 shows the amounts that were expended for disaster
    and humanitarian assistance projects, based on our review and analysis of the
    DFAS 1002 report.

    We were unable to determine whether the amounts expended were all related to
    disaster and humanitarian assistance, because DoD Components did not maintain
    documentation to support all amounts expended past the 6 years and 3 months
    required by the DoD FMR.




                                        4
Domestic Projects. We did not find any instances where DERF was used for
domestic disaster or emergency relief assistance since it was established in
November 1989.

Overseas Disaster and Humanitarian Relief Projects. From its inception in
1989 through 2006, DERF has been used for overseas disaster and humanitarian
assistance projects. According to a DFAS 1002 report dated May 31, 2007, more
than $384 million has been used for these projects. Because the total amount
expended on all DERF-funded projects ($384 million) is almost equal to the total
amount in DERF (an initial $100 million plus the $299.3 million provided by
Public Law 103-139), we believe that DoD Components used $136.5 million (the
$299.3 million public law provided minus the $162.8 million expended for the
Rwanda and Cuba project) to support other DERF-funded projects. Table 1
shows the projects we reviewed.

                                        Table 1.
                    DERF Expended by Project Per DFAS 1002 Reports1
                                      (in millions)
                      Amount
                  Available for   Amount            Amount     Unpaid                   Amount
 Project           Obligations  Unobligate       Obligated Obligations                 Expended
       A                      B          d               D           E                        F
                                        C
                                                     (B-C)                                  (D-E)
 Bangladesh                $6.4      $ 1.1           $ 5.3          $0                      $ 5.3

 Rwanda/Cuba             163.62               0.8          162.8               0           162.82
  Refugee

 Haitian                    3.8               0.2            3.6               0               3.6
  Refugee

 Humanitarian            215.03               5.4          209.6             1.9           207.74
  Assistance

 Pakistan                   6.0                0             6.0               0               6.0
  Earthquake
  Relief

 Project Not                4.6               4.6              0             1.35            (1.3)
   Specific

 Total                   $399.4          $12.1           $387.3             $3.2           $384.1
 1
   Differences between the DFAS SF 133 and DFAS SF 1002 reports were due to rounding.
 2
   Public Law 103-139 provided $299.3 million for this project. DoD Components used the
 difference to support other disaster and humanitarian efforts.
 3
   DoD Components received $23.5 million direct funding for this project but used other DERF funds
 to support this project.
 4
   Does not include the Army negative disbursement of $198,000.
 5
   Net of Air Force negative unpaid obligation of $15,000 for Rwanda/Cuba refugee and
 Humanitarian relief projects.



                                          5
However, we were unable to determine whether the amounts expended were all
related to the disaster and humanitarian assistance, because DoD Components did
not maintain documentation to support amounts expended past the 6 years and 3
months required by the DoD FMR.

        Bangladesh Disaster Relief Project. In 1991, the Army was the
executive agent for DoD domestic assistance to civil authorities for manmade and
natural disasters. On August 26, 1991, the Army requested, as executive agent,
that the Deputy Comptroller of Defense (Program and Budget) use $6.4 million of
DERF to reimburse the Army for expenses incurred for disaster assistance in
Bangladesh (Operation Sea Angel.) On September 5, 1991, the DoD Office of
General Counsel (OGC) maintained that while the expenses were incurred prior
to the President’s authorization, they appeared to be within the purposes of
DERF. According to the DoD OGC, the determination to use DERF was
necessary before a formal request for reimbursement could be received from
another Federal agency, and, in this case, “the services were provided under the
circumstances of Department of State responsibility requiring reimbursement
from the Department of State.”

On September 11, 1991, the USD(C)/CFO approved the use of DERF to
reimburse the Army for expenses incurred for Operation Sea Angel. According to
the DFAS 1002 report, $1.1 million of the $6.4 million was classified as
“unobligated,” which means that the amount expended for Operation Sea Angel
was therefore about $5.3 million. About $4,000 of this amount was classified as
unpaid obligations, which means that the amount expended for Operation Sea
Angel was about $5.3 million. Based on our review of the DERF account
transaction history, we believe that DoD did not bill DoS for reimbursement for
the costs incurred for this project. We also did not find any evidence that DoS
requested DoD assistance after DoD had provided the assistance.

In 1991, the Army was not the DoD executive agent for overseas DoD disaster
relief and emergency assistance and therefore could not request the use of DERF
for Operation Sea Angel, as stated in the Army’s request for reimbursement.
According to DoD Directive 5100.46, the DoD Assistant Secretary of Defense
(International Security Affairs) is responsible for designating the DoD
Coordinator for Foreign Disaster Relief and the DoD point of contact with DoS
for coordinating DoD disaster relief operations. The directive also stated that
DoD Components would participate in foreign disaster relief operations only after
DoS has determined that foreign disaster relief should be provided. DoS would
then send a request to the DoD coordinator for foreign disaster operations. We
did not see any coordination between the DoD Coordinator for Foreign Disaster
Relief and DoS. If Operation Sea Angel was requested by DoS or was executed
in anticipation of a reimbursable request from DoS, DoD should have requested
reimbursement of the $5.3 million.

       Rwanda and Cuba Migrant Refugee Project. Public Law 103-335
provided $299.3 million to reimburse DoD Components for costs incurred for
emergency relief efforts in Rwanda and for emergency migrant processing and
safe-haven costs in or around Cuba. This amount was accounted for in DERF.


                                    6
USD(C)/CFO allocated the funds for this project to the Washington Headquarters
Services (WHS), which in turn suballocated $93.2 million to the Army, more than
$131.1 million to Navy, and more than $70.6 million to the Air Force, for a total
of about $294.9 million. This amount is $4.4 million less than the amount
provided by the public law. Of the $294.9 million, the DFAS 1002 report
indicates that the DoD Components expended about $162.8 million for the
project.

        Haitian Refugee Project. In 1994, WHS suballocated about $3.8 million
to the Army, more than $54.6 million to the Navy, and $5.6 million to the Air
Force for the Haitian Refugee Project, for a total of more than $64 million. The
DFAS 1002 report indicates that the Army expended all but $0.2 million of the
$3.8 million it received for the project. We believe that the $0.2 million is excess
funding authority that the Army needs to return to the USD(C)/CFO. In addition,
because the total amount expended on the Haitian project was about $3.6 million,
we believe that the Navy and the Air Force used their funding for the Haitian
project on other disaster and humanitarian projects. We were unable to determine
whether DoS requested DoD assistance for this project. However, the Deputy
SECDEF approved the use of DERF for the project in May 1994 under Public
Law 103-139. Under this law, DERF could be used if the SECDEF determined
that DoD assistance was necessary. We did not find any evidence that DoD billed
DoS for reimbursement for the amount expended for this project.

Humanitarian Assistance. In 1994, WHS suballocated about $10.8 million to
the Army, about $0.2 million to the Navy, and about $2 million to the Air Force
for disaster and humanitarian assistance for 9 overseas projects: Columbia
Earthquake Disaster Assistance, Bosnia/Herzegovina Relief, Croatia Relief,
Liberia Relief, Kurdish Relief, Sarajevo Market Place Victims Assistance, India
Earthquake Assistance, Honduras Earthquake Relief, and Papua New Guinea
Relief Assistance. Documentation was not available for us to break the costs
down by project. As a result, we were unable to determine the amount expended
on each of the nine projects. WHS also allocated about an additional
$10.5 million to the Defense Logistics Agency (DLA) for storage and stockpiling
daily rations for humanitarian assistance. The total amount funded for the
humanitarian assistance projects was about $23.5 million.

Our analysis of the DFAS 1002 report indicates that the Components expended
more than $207.6 million for the 9 projects and for storage and stockpiling daily
rations for the humanitarian assistance. This amount is more than the
$23.5 million that WHS suballocated to the Components. Because the
Components did not maintain documentation past the 6 years and 3 months
required by the DoD FMR, we were unable to verify the source of funding for the
excess amounts expended for the projects. However, because the total amount
spent for all DERF-funded projects (about $384 million) is almost equal to the
total amount in DERF (initial $100 million plus the $299.3 million), we believe
that the Components used funds earmarked for the Haitian refugee and the
Rwanda/Cuba projects to supplement their funding for humanitarian assistance.
However, we do not consider the use of the excess funding to supplement the
humanitarian assistance to be a potential violation of the Antideficiency Act.
DoD internal memoranda indicate that DoS requested assistance for seven of the
nine humanitarian assistance projects and were approved by the appropriate DoD


                                     7
    officials. However, based on our review of DFAS reports, we believe that DERF
    was not reimbursed, because the Components and the DoD Coordinator for
    Overseas Disaster did not bill DoS for reimbursement, as required by DoD
    Directive 5100.46 and the DoD FMR.

            Pakistan Earthquake Relief Assistance. DoS requested the DoD
    assistance for this project “on a nonreimbursable basis.” In an October 2005
    memorandum to DoD Components, the Director of Operations, USD(C)/CFO
    Program & Budget, stated that the Pakistan humanitarian assistance and disaster
    relief should be financed from Overseas Humanitarian, Disaster, and Civic Aid
    (OHDACA) funds administered by the Defense Security Cooperation Agency
    (DSCA), and that charges to other appropriations must be reimbursed from
    OHDACA funds. Accordingly, DoD overseas humanitarian assistance and
    disaster relief activities were funded by an OHDACA appropriation administered
    by DSCA. However, in November 2005, the Acting Deputy SECDEF approved
    the use of up to $18 million in DERF for earthquake relief assistance in Pakistan.
    The funds were to be administered by the DSCA. DSCA officials told us that
    they requested DERF funds because they ran out of OHDACA funds. (We did
    not attempt to validate this; auditing OHDACA funds expended for overseas
    disaster assistance was outside the scope of our review).

    In December 2005, the USD(C)/CFO allocated more than $10.5 million to DSCA
    for the Pakistan relief project. DSCA provided the DERF accounting line to the
    U.S. Transportation Command (USTRANSCOM) and asked USTRANSCOM to
    bill all expenses to DERF. USTRANSCOM expended all the funding. DSCA
    officials told us in an e-mail message that after their review and discussion with
    USTRANSCOM, they determined that USTRANSCOM had used wrong billing
    rates, which resulted in an overbilling of more than $ 4.4 million. They stated
    that in September 2006, USTRANSCOM corrected the amount billed and had
    actually expended $6 million. DSCA also told us that they asked USD(C)/CFO to
    withdraw the excess funding authority of $ 4.4 million it had received. However,
    the DFAS 1002 report indicated that USD(C)/CFO did not withdraw the excess
    funding authority from DSCA. Because the DoS request was on a
    nonreimbursable basis and DoD accepted and funded the request with DERF, we
    do not believe that DERF was used in anticipation of a reimbursable request from
    DoS, and we do not believe that DoD could have billed DoS for this
    reimbursement.


DERF as a Reimbursable Account
    According to the DoD FMR, volume 1, December 2001, obligation authority is
    the budget authority provided by law to enter into obligations that will result in
    immediate or future outlays of Government funds. An unobligated balance is the
    difference between the obligation authority available and the total obligations
    incurred. DoD FMR volume 3, chapter 11, January 2001, defines unliquidated
    obligations as the total obligations that have not been paid. Chapter 10,
    December 2000, states that negative unliquidated obligations occur when the total
    amount paid for a valid obligation exceeds the amount obligated.



                                         8
Public Law 101-165 established DERF to reimburse DoD Components for the use
of their resources in providing disaster assistance. According to DoD regulations,
DERF was intended to reimburse DoD Components providing disaster and
emergency relief assistance only after the Components have first used their own
resources in anticipation of reimbursable requests from other Federal agencies
and from state or local governments. However, for the relief projects we
reviewed, USD(C)/CFO reimbursed the Army for costs incurred for only one
project. For the other projects, USD(C)/CFO provided direct obligation authority
to WHS and the DSCA, who then gave that direct obligation authority to the DoD
Components. Table 2 shows the relief projects we reviewed, along with their
obligation authority.

                                   Table 2.
             Obligation Authority by DoD Component and Project
                                 (in millions)

                                                                       Total
                               Executing              Funds          Obligation
        Relief Project         Component            Issued by        Authority

 Bangladesh Disaster               Army           USD(C)/CFO            $ 6.4
  Relief

 Haitian Refugee Effort           Army                WHS                  3.8
                                  Navy                WHS                 54.6
                                 Air Force            WHS                  5.6
     Sub Total                                                            64.0

 Rwanda Refugee/Cuba              Army                WHS                 93.2
  Migrant Relief                  Navy                WHS                131.1
                                 Air Force            WHS                 70.6
     Sub Total                                                           294.9

 Humanitarian                     Army                WHS                 10.8
  Assistance*                     Navy                WHS                  0.2
                                 Air Force            WHS                  2.0
                                   DLA                WHS                 10.5
     Sub Total                                                            23.5

 Pakistan Earthquake          USTRANSCOM              DSCA                10.5

 Total                                                                  $399.3
 *
  The humanitarian assistance includes nine individual projects: Columbia Earthquake
 Disaster Assistance, Bosnia/Herzegovina Relief, Croatia Relief, Liberia Relief,
 Kurdish Relief, Sarajevo Market Place Victims Assistance, India Earthquake
 Assistance, Honduras Earthquake Relief, and Papua New Guinea Relief Assistance,
 and for storage and stockpiling daily rations for humanitarian assistance.
 Documentation was not available for us to break the costs down the by project.




                                      9
          Having direct obligation authority for DERF means that the DoD Components did
          not have to use their own resources before requesting reimbursement from DERF.
          Although direct obligation authority provided the least adverse impact on the
          mission of DoD Components (because they did not have to use their own
          resources to finance disaster and humanitarian relief assistance), it does not
          comply with the requirements of Public Law 101-165 and DoD policies.


Unobligated and Unpaid Obligations
          The funding documents requested that the DoD Components identify any excess
          funding and inform the Office of the Deputy Assistant Secretary of Defense for
          Humanitarian and Refugee Affairs. However, some of the Components did not
          manage the obligation authority efficiently enough to ensure that excess funds
          were identified. We consider an obligation authority to be excess if it has not
          been obligated for at least 2 years or it has been obligated but has not been
          disbursed for 2 years. Table 3 shows the amounts from our review of the DFAS
          “Report on Budget Execution,” (DFAS SF 133), May 31, 2007, that we consider
          excess direct obligation authority. *

                                                 Table 3.
                       Excess Direct Obligation Authority By DoD Components and
                                 Appropriation Code Per DFAS Reports
                                               (in millions)
                                Appropriation                      Unpaid
           Component               Limit*        Unobligated      Obligation         Total

           Army                     .0100             $ 1.1           $0             $ 1.1

           WHS                      .2000              3.3             0               3.3

           Army                     .2001              1.8             1.1             2.9

           Air Force                .2002              0.4             0               0.4

           Navy                     .2004              0.2             1.9             2.1

           DLA                      .2051              0.9             0               0.9

           DSCA                     .6800              4.4             0               4.4

           USD(C)/CFO               .9999              0               0.3             0.3
           Total                                      $12.1           $3.3           $15.4
           *
               Appropriation code is preceded by 97X4965


*
    We compared the DFAS SF 133 Report to the DFAS Appropriation Status Report (DFAS 1002 Report)
    and arrived at the same conclusion. Differences were due to rounding.



                                                 10
    For appropriations that are available for an indefinite period, the DoD FMR
    requires that obligated and unobligated balances be canceled when no
    disbursements have been made for a period of 2 years and when the President, the
    SECDEF, or his designee determines that the purpose for which the appropriation
    was made has been carried out. Because they were given direct obligation
    authority to DERF, the Components did not review their obligations to ensure that
    the obligations were valid or deobligated. The Components did not manage
    DERF efficiently to ensure that excess funding authority was identified and
    returned to USD(C)/CFO. The Components have about $15.4 million in
    unobligated funds or unpaid obligations. Specifically, about $12.1 million in
    obligation authority has remained “unobligated” and about another $3.3 million
    has been classified as “unpaid obligations” for more than 10 years. As shown in
    Table 3, approximately $1.1 million in “unobligated” and “unpaid obligations”
    for the Army (limit .0100) are from the funding authority that USD(C)/CFO
    provided to the Army for disaster assistance in Bangladesh in 1991, more than 16
    years ago. Also, the Army’s “unobligated” and “unpaid obligations” of about
    $2.9 million (limit .2001), the Air Force’s “unobligated” and “unpaid obligation”
    of about $0.4 million (limit .2002), and the Navy’s “unobligated” and “unpaid
    obligation” of about $2.1 million (limit .2004) in the table are all from the
    obligation authorities provided to them for refugee assistance in 1994, more than
    13 years ago. In addition, two Components had abnormal account balances of
    negative unpaid obligations.


Reimbursement
    DoD OGC has maintained that DoD should have billed DoS for its Bangladesh
    disaster assistance expenses. We were unable to determine whether DoS
    requested DoD assistance for the Haitian refugee project. However, the Deputy
    SECDEF approved the use of DERF for the project under Public Law 103-139.
    According to DoD internal memoranda, DoS requested DoD assistance for seven
    of the nine humanitarian assistance projects. (Documentation did not exist for the
    other two projects.) Funding for all nine projects was approved by DoD officials.
    In addition to the $299.3 million provided by Public Law 103-335, DoD
    Components used $78.7 million of the DERF initial capitalized amount of
    $100 million for all 11 projects, and based on our review of the DERF account
    transaction history, we believe that DoD did not bill DoS for reimbursement for
    any of them. We believe that DoD used direct obligation authority for DERF
    because it had the fewest adverse effects on DoD Component mission
    accomplishment. In addition, we believe that because of their direct obligation
    authority for DERF, the Components did not have any reason to bill other
    organizations for emergency relief costs incurred. They did not prepare and
    submit reimbursable billings to the DoD Coordinator for Foreign Disaster Relief
    for transmission to DoS, as required by DoD 5100.46, because the funding and
    obligation authority they received did not tell them that they had to bill DoS for
    reimbursement.

    For example, WHS suballocated the funding for disaster and humanitarian
    assistance to the DoD Components. One WHS official told us in an e-mail
    message that “a reimbursable authority is needed in order to bill, and at the time


                                         11
    there was no reimbursable authority for this account. More importantly, we can’t
    think of any reason for the DERF to be used for a reimbursable purpose.”

    DERF was initially funded at $100 million and as of May 31, 2007, DERF had an
    account balance of about $15.3 million, including unpaid obligations that needed
    to be deobligated. This means that DoD Components used more than
    $84.7 million for the overseas disaster and humanitarian assistance. Of the
    $84.7 million, about $6 million was used for the Pakistan earthquake relief
    assistance on a nonreimbursable basis. DoD therefore should have billed DoS for
    the $78.7 million expended on the overseas disaster and humanitarian assistance.
    Table 4 shows the amounts by project that we believe DoD should have billed
    DoS for reimbursement. The amount provided by Public 103-335 was not part of
    the original DERF capitalized amount of $100 million and therefore not
    reimbursable. Because DoD Components did not maintain documentation beyond
    the required 6 and 3 months, we do not believe that DoD can recover this amount
    from DoS. DoD therefore must find other sources of funding to bring DERF to
    the initial funded amount of $100 million.

                                  Table 4.
           DERF Expenditures Reimbursable by the Department of State
                                (in millions)

      Project                                               Amount Expended

      Bangladesh                                                  $     5.3

      Haitian Refugee                                                   3.6

      Humanitarian                                                    207.6

      Amount Provided by Public Law 103-335 for                   (136.5)
      Rwanda/Cuba

      Project Not Specific                                        (     1.3)

      Total                                                           $78.7


Use of Funds Provided by Public Law 103-335
    Public Law 103-335 provided $299.3 million to DERF and specifically stated that
    it was to be used for DoD costs incurred for emergency relief efforts in Rwanda
    and for emergency migrant processing and safe-haven costs in or around Cuba.
    Added to the initial capitalized amount, the total amount in DERF was
    $399.3 million. As shown in Table 1, DoD Components used about
    $384.1 million on all the overseas disaster and humanitarian assistance. Of this
    amount, only $162.8 million was used for the Rwanda relief efforts and for the
    emergency migrant processing and safe-haven costs around Cuba. Because the
    total amount expended on all DERF-funded projects ($384.1 million) is almost
    equal to the total amount in DERF (initial $100 million plus the $299.3 million


                                       12
    provided by Public Law 103-139), we believe that DoD Components used
    $136.5 million ($299.3 million provided by the public law minus the
    $162.8 million expended for the Rwanda and Cuba project) to support other
    DERF-funded projects. We do not consider this as a potential violation of the
    Antideficiency Act.


Adequacy of DERF Funding
    Based on the current account balance, DERF is not adequately funded to meet
    future demand for DoD involvement in disaster and emergency relief efforts. We
    make this conclusion based on comparing the current DERF account balance of
    $15.3 million to the initial capitalized amount of $100 million. Table 5 shows the
    reconciliation of our audit results to the DFAS 1002 report. Public Law 103-335
    added $299.3 million to DERF. However, the $299.3 million was restricted for
    emergency relief efforts in Rwanda and for emergency migrant processing and
    safe-haven costs in or around Cuba. Accordingly, if used as a reimbursable
    account, DERF should have a balance of $100 million in the account.

    Based on our reconciliation, we concluded that $84.7 million is required to bring
    DERF up to its initial capital balance of $100 million. If DoD had billed DoS for
    the $78.7 million expended on overseas disaster and humanitarian assistance, only
    the $6 million expended on the Pakistan earthquake relief project on a
    nonreimbursable basis would be needed to replenish the DERF account. Also,
    because DoD overseas disaster and humanitarian assistance is funded with the
    OHDACA appropriation, which is administered by DSCA on nonreimbursable
    basis, we believe that DERF, once it is fully funded, should only be used for
    overseas emergency assistance as a last resort.




                                        13
                                             Table 5
                          DERF Account Balance as of May 31, 2007
                        Reconciliation of Audit Results to DFAS Report
                                          (in millions)

      Per Audit.
      Appropriated Fund:                                                 $100.0
        Public Law 101-165                                               299.3a
        Public Law 103-335
      Total Appropriated Funds                                                      399.3

      Less Amounts Expended for:
        Bangladesh Disaster Relief Project                                  5.3
        Rwanda Refugee/Cuba Migrant Relief                                162.8
          Project
        Haitian Refugee Relief Project                                       3.6
        Disaster and Humanitarian Relief Project                          207.6
        Pakistan Earthquake Relief Project                                   6.0
        Project Not Specific                                               (1.3)
      Total amounts Expended                                                        384.0
      DERF Account Balance Per Audit                                               $ 15.3b

      Per DFAS 1002 Report
      Unobligated                                                                     12.1
      Unpaid Obligations                                                               3.3
      DERF Account Balance Per DFAS 1002                                           $ 15.4b
       Report
      a
          DFAS 1002 report shows $299.2 million as available for obligations
      b
          Differences due to rounding.



Other Matters
    Use of DERF Prior to Public Law 103-139. Public Law 103-139 amended
    Public Law 101-165 and stated that when the SECDEF determines that immediate
    DoD assistance is necessary, DERF could be used in addition to other DoD funds
    to provide the assistance. Public Law 103-165 did not limit the use of DERF to
    domestic disasters only. In response to our request for information on Operation
    Sea Angel, an Army official familiar with the project told us in an e-mail message
    that “it was the first use of the Emergency Response Fund and as such the usage
    was improper since the fund was established to cover the first response to U.S.
    natural disasters.” Section E2.1.10 of DoD Directive 3025.1 states that DERF
    may be used for foreign disaster assistance. We therefore believe that the use of
    DERF for Operation Sea Angel was proper.

    Use of DERF as Nonreimbursable Account. Public Law 103-139 amended
    DERF to be used in addition to the provision of Public Law 101-165, and when
    the SECDEF determines that DoD assistance is necessary. We believe that this
    public law did not amend the intent of Public Law 101-165 for DERF to be used


                                                14
    as a reimbursable account. We therefore believe that DERF was not used as a
    reimbursable account when about $6 million was used for the Pakistan disaster
    assistance on a nonreimbursable request from DoS.

    Limitation on the use of DERF for Overseas Assistance. According to the
    DoD 3025.1-M, following the amendment of DERF by Public Law 103-139, the
    SECDEF determined that DERF funds up to $50 million may be used for foreign
    disaster assistance and that the remainder of the funds could be used for domestic
    disaster and civil emergency assistance. Since DERF was established, DoD
    Components have used $84.7 million of its initial $100 million of funding to fund
    foreign disaster assistance. This amount exceeds the $50 million threshold
    identified in DoD 3025.1-M. We believe that because of the establishment of
    OHDACA, the USD(C)/CFO should specify when DERF may be used for
    overseas disaster and humanitarian assistance.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

          A. Require the DoD Components to deobligate all unpaid obligations
    more than 2 years old and withdraw all excess DERF funding that
    authorities provided to the Components.

           B. Revise chapter 6 of the DoD Financial Management Regulation to
    provide guidance and assign responsibilities for the use of the Defense
    Emergency Response Fund for overseas disaster and humanitarian
    assistance.

    Management Comments. The Under Secretary of Defense (Comptroller)/Chief
    Financial Officer agreed with both parts of the recommendation and stated that
    DoD Components have been provided with guidance to recoup, where possible,
    unliquidated obligations. Also, the DoD FMR is scheduled for update in the
    summer of 2008.

    Audit Response. The Under Secretary of Defense (Comptroller)/Chief Financial
    Officer comments are responsive and no additional comments are required.

    2. We recommend that the Assistant Secretary of Defense for Homeland
    Defense and America’s Security Affairs inform the Deputy Comptroller
    (Program/Budget) of the need for additional funding to sustain DERF.

    3. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer and the Assistant Secretary of Defense for Homeland
    Defense and America’s Security Affairs jointly study the need for DERF:

           A. And, if needed, obtain additional funding to sustain it.



                                        15
       B. If not needed, obtain other budget authority for increasing DoD
disaster and humanitarian assistance.

Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer partially concurred with Recommendations 2 and 3 and stated
that additional funds were included in the President’s Budget Requests for
FY 2008 and FY 2009 to ensure that DoD had adequate resources for its
emergency and disaster relief efforts. In addition, in FY 2008, Congress
expanded the Combatant Commander Initiative Fund to be used for unanticipated
humanitarian relief and reconstruction assistance, particularly in foreign countries
where the Armed Forces are engaged in contingency operations.

Audit Response. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer comments are responsive and no additional comments are required. As a
result of the management comments, we revised Recommendation 3 to clarify our
intentions. The Assistant Secretary of Defense for Homeland Defense and
America’s Security Affairs did not provide us with direct comments on the
recommendations. Personnel from the Office of the Assistant Secretary of
Defense for Homeland and America’s Security Affairs told us that they
coordinated their response with the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. We confirmed the statement with
personnel of the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer who told us that they considered those comments in preparing
the comments they provided to us. We therefore consider the Under Secretary of
Defense (Comptroller)/Chief Financial Officer comments to be inclusive of the
Assistant Secretary of Defense for Homeland Defense and America’s Security
Affairs comments. No additional comments are required from the Assistant
Secretary of Defense for Homeland Defense and America’s Security Affairs.

Other Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer comments stated that “reimbursement to the DERF is allowed
and anticipated but is not required by law.” Also, for Operation Sea Angel, DoD
made the determination that immediate response to the natural disaster was
necessary and that the action was taken under circumstance requiring
reimbursement from DoS. The Under Secretary added that reimbursement could
have only occurred if DoS had requested DoD assistance after the fact but that
reimbursement from DoS was unlikely since there is no documentation
supporting a DoS request.

Audit Response. As stated in the report, Public Law 101-165 states that upon the
determination by the SECDEF that DoD action is necessary, DERF could be used
“before a formal request for assistance on a reimbursable basis is received.”
Reimbursements received are to be deposited into the DERF account. We have
stated in the report that we did not see any coordination between DoD and the
DoS on Operation Sea Angel. We have also stated in the report that if Operation
Sea Angel was requested by DoS or if DoD provided the disaster assistance in
anticipation of reimbursable request from the DoS (as also stated in the
comments), DoD should have requested reimbursement from the DoS.




                                     16
Appendix A. Scope and Methodology
   We conducted this financial-related audit from May 2007 through December
   2007 in accordance with generally accepted government auditing standards.
   Those standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We performed this audit to determine
   whether DERF was used for its intended purposes and whether it is adequately
   funded to respond national disasters. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit.

   We performed the audit by requesting data and conducting interviews with
   officials and operating personnel at the Components involved in DoD disaster and
   emergency assistance. We reviewed funding documents to determine the funding
   authority provided to the DoD Components. We compared the DFAS
   Appropriation Status report dated May 31, 2007 (DFAS 1002 report) to the DFAS
   Budget Execution report dated May 31, 2007 (DFAS 133 report) to determine the
   amounts available for obligation, amounts obligated, and unpaid obligations at the
   Components we reviewed. We computed the amount expended for each project
   by subtracting unobligated amounts and unpaid obligations from the total funding
   authority provided for each project. We were unable to trace the amounts
   expended to source documents to determine whether the expenditures were
   related to the projects for which the funds were allocated. The Components did
   not maintain supporting documentation beyond the DoD FMR-mandated record
   retention period of 6 years and 3 months. The details of our review are provided
   below.

   Bangladesh Disaster Relief. The Department of the Army provided disaster
   relief assistance to Bangladesh in 1991. Army received about $6.4 million and
   expended about $5.3 million for the relief assistance. We obtained internal Army
   documentation and documentation between the Army and the USD(C)/CFO
   requesting the transfer of funds to reimburse the Army for expenses incurred for
   the Bangladesh earthquake relief project. We reviewed DoD Office of General
   Counsel opinion on the use and reimbursement of funds expended on the project.
   We also reviewed DFAS 1002 and DFAS 133 reports to determine the amounts
   that Army expended for the relief efforts and the status of any other unused DERF
   funds.

   Rwanda and Cuba Refugee and Migrant Processing. In 1994 and 1995, WHS
   suballocated $93.2 million in DERF funds to Army, more than $131.1 million to
   Navy, and about $70.6 million to Air Force, for a total of about $294.9 million.
   We verified these amounts to funding documents. Collectively, the Components
   expended about $162.8 million of the $294.9 million. We were unable to verify
   the amounts expended to source documentation to determine whether the
   expenditures were related to the project, because the Components did not
   maintain records past the DoD FMR-required 6 years and 3 months. We
   reviewed DFAS 1002 and DFAS 133 reports to determine the amounts that the
   Components expended for the projects and to determine the status of any unused
   funds.



                                       17
Haitian Refugee Relief. In 1994, WHS suballocated about $3.8 million to Army,
about $54.6 million to Navy, and $5.6 million to Air Force for the Haitian refugee
project for a total of about $64 million. We compared the amounts funded to fund
authorization documents. We reviewed DFAS 1002 and DFAS 133 reports to
determine the amounts that the Components expended for the projects and to
determine the status of any unused funds. However, we were unable to trace the
amounts to source documents because the documentation retention period had
expired at the time of our audit.

Humanitarian Relief Effort. In 1994, WHS suballocated about $10.8 million to
Army, about $0.2 million to Navy, about $2 million to Air Force, and about
$10.5 million to DLA for disaster and humanitarian assistance for 9 overseas
projects for a total of about $23.5 million. The projects were Columbia
Earthquake Disaster Assistance, Bosnia/Herzegovina Relief Effort, Croatia Relief
Effort, Liberia Relief Effort, Kurdish Relief Effort, Sarajevo Market Place
Victims Assistance, India Earthquake Assistance, Honduras Earthquake Relief
Effort, and Papua New Guinea Relief Efforts and also for storage and stockpiling
daily rations for the humanitarian assistance. However, the Components
expended about $207.6 million for all the humanitarian assistance projects. We
verified the amounts funded against funding authorization documents. We
computed the amounts expended using the DFAS 1002 report and compared the
amount computed to the DFAS 133 report to determine the status of any unused
funds. We were unable to trace the amounts to source documents because the
documentation retention period had expired at the time of our audit.

Pakistan Earthquake Relief. In FY 2006, DSCA received about $10.5 million
from the USD(C)/CFO for the Pakistan earthquake relief project and provided
funding authority to USTRANSCOM. USTRANSCOM expended about
$6 million on this project. We compared the funding authority to funding
documents. We obtained a transaction history of 148 transactions from
USTRANSCOM valued at $6 million and verified all the transactions to vouchers
and other billing documents to determine the accuracy of the transaction history
and amounts billed. We compared the aircraft billing rates used for the billing to
the Air Mobility Command-approved aircraft billing rates to determine the
USTRANSCOM air transportation rates used in the billings and the accuracy of
the amounts billed.

Use of Computer-Processed Data. We relied on computer-processed data
provided to us by DFAS to determine the amounts that DoD Components spent
on DoD disaster and emergency relief assistance. We did not evaluate the general
and application controls for the systems. Not performing the general and
application control evaluations of the systems did not affect the results and
conclusions of our audit.

Use of Technical Assistance. We did not use any technical assistance in
conducting our audit. DoD OIG Office of General Counsel reviewed a draft of
this report.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of one aspect of the financial management high-risk area.


                                    18
Prior Coverage
       No prior coverage has been conducted on DERF during the last 5 years.




                                     19
Appendix B. Report Distribution
Under Secretary of Defense (Policy)
   Assistant Secretary of Defense (Special Operations & Low-Intensity Conflict)
   Assistant Secretary of Defense (International Security Affairs)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Homeland Defense and America’s Security Affairs
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Transportation Command
Commander, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
Director, Washington Headquarters Services




                                          20
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      21
Under Secretary of Defense (Comptroller/Chief
Financial Officer) Comments




                      23
     Final Report
      Reference




     Revised




24
     Revised




25
26
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Lorin T. Pfeil
Henry Y. Adu
Emmanuel A. Appiah
Sharon A. Loftin
Sonya T. Davis
Sue-milney Sepulveda-Recio
Ellen Kleiman-Redden
